                   UNlTED STATES GOVERNMr.NT
                   Memorandum                                                    Office of the Inspector Gel1lmd
llBRARYOF
CONGRESS

TO,                Ambassador Joh n O'Keefe                                                              July 14, 201 0
                   Executive Director
                   Open World Leadership Cente r

FROM ,             Kad W. Schomagel           \~                      ~
                   Inspector Gene ral          \        , --"''-\-;''\
                                                                    ''

SUBJECT,           Resu lts of the Ope n World Leadership Center
                   FY 2009 Financial Statements Aud it

The attached report presents the results of the annual audit of the Open World Leadership Center's
(Open World) financial statements fo r fi scal yeilrs (FY) 2009 <lnd 2008.

We contracted with the independent ce rtified public accounting fi rm of KCil rney & Company
(Kearney) for the audit. The contract required that the audit be performed in accordance with U.s.
generally accepted government auditing standards; Office of Manage ment <lnd Budget Bu lletin No.
07-04, Audit !{cqllirements!or Federal FiJl(mcial Stfltell/ellls; and the GAO/PClE Financial Audit Manual.

In its audit of Open vVorld, Kearn ey fou nd :

      •   TI,e financial statements we re fairly presented. in all material respects. in conformity w ith
          U.s. generally accepted accounting principles.
      •   There were no materia l weaknesses in internal controP over financial reporting (including
          safeguardin g assets), and

      •   There were no instances of non com pliance with laws and regulations it tested.



1 A material weakness is il signifieant deficienc y. or combination of signilicam deficiencie s. [1m results in 1110re than a
remole likelihood Ihal il m:lIerial misslalemenl of lhe finilncial SlnlemenlS will nOI be prevented or dClected by Open
World's intern:!1 comrols. A significant deficiency is a comrol deficie ncy. or combinmion of cOnlTol deficiencio:s. Ihal
adve rsely affects Open World's ability to iniliale. authori ze. record. process. or ro.:pon fin ancial dala reliability. in
accordance wilh generally accepted accouming principles. such d ill! there is more lImn a remote likelihood thai a
misstatement in Open World' s financial Slalerncrus that is 1II0re Ihom inconsequential will nOI be prcwnlcd or delech:d by
Open World' s inlernal cOl\lrol s. A control deficiency e:';151s when Ihe dl:sign Of operation ofa conlro l docs not allow
management or employees. in Ihe nonnal course of perfonning their assigned funclions. 10 pn:vent or deleci
miSSlalemelliS o n:J timdy basis.
In connection with the contract, we reviewed Kearney's report and related documentation and
inquired of its representatives. Our review as differentiated from an audit in accordance with U.S.
generally accepted government auditing standards, was not intended to enable us to express, and
we do not express, an opinion on Open World's financial statements or conclusions about the
effectiveness of internal controls or conclusions on compliance with laws and regulations. Kearney
is responsible for the attached auditor's report dated May 14, 2010 and the conclusions expressed in
the report.! However, our review disclosed no instances where Kearney did not comply, in all
material respects, with U.S. generally accepted government auditing standards.


Attachment




~ In accordance with generally accepted auditing slanduds, Kearney's repon is dated as oflhe last day of lheir audit
fieldwork. Kearney's final report was delivered to the Office oflhe Inspector General on June 16, 2010.
KEARNEY&                  Cerrified Public ACCOIllIfIIllIS
COMPANY                   fllld COIISlllfflllts

                                                                                                   "''''t"
                                                                               I~III I'.,rd \\<"1\"('  I ,In \k~.ln,'n.1 \ \ !!'.()2
                                                                              I'll -11\'):', ~NMI F' -11."1.,1.,(.",,; '''''' k.m ..."\,,,,,,,,,

                                I N DF.I'EN DE NT AU DITOR'S REPORT

Execut ive Director
Open World Lcadcrship Center

Wt.: have audited the accompan ying con so lidated balancl.; sheets oflhl! Open World Leadership
CCl1h.: r (the Center) as of Septcmber 3~. 2009 and 2008. and the relat ed c(1Ilsoiidnlcd statements
of 1ll.!1 cosl. stah;mcnts of changes in nCl posilion. and combined stat ement of budgetary resources
(hereinafter re ferred to as the linancial sliltcIlH:nt s) lor the yeurs then cllckd. Thcsc linancial
statements arc the rcspon sibili lyo rthc Center' s managcllll:JlL Our rl..!sponsibilil Y is \0 express an
opinion on these linancia[      s tat~m~nt s      based   011   OLlr audit.

SU MMARY

As stated in our npinion o n the financial statelllents. we concluded that the Center' s linancial
statements for thl.; years ended Se pt cmber .10. 2009 and 100 8 are presented fairly. in all materia!
respects. in conformity with accounting principles general ly accepted in the United States of
America .

Qur consideration of internal cOlltrol o ver linancial reporting (including the safeguarding of
assets) disclosed no material wcaknesses .

The results of our tests of compliance with c~ rtain pro vis ion s of laws and regulation s disclosed
 no instances ofn o nco mp[iancc Ihat are required to be repo rted herein under COn'nlll/(,1II
".fur/iring Sra/l{llInls issued by the Comptroller General o f the United States.

The following sectio ns discu ss llur opinion on the Center' s linancia[ statements. our
co nsiderati o n of the Center' s inl!.:rnal control over linancial reponing, our te sts ol"tll1.: Center' s
compliance with certain provis ion s of applicabll.: [a\\'s and rl.:gu[ation s. and management' s and
our rl.:sponsibi[iti!.!s.

OP I N ION ON TI·I E FI NANC IAL STATEi\ I ENT S

We have auditcd thc acco mpan ying co nsolidated balance sheets 01"1111.: Cl.:lltcr as of Sl.:ptcmber
30,2009 and :2008. and the related consolidated statement s ornet cosl. statements ofchangcs in
nl.!! position, and comb in ed stah.:ll1cnt o f budgcta ry resources lor th e years then en(kcl. These
financial statemcnt s are the respon sibilit y of tile Cent!.!r' s management. Our respon sibility is!O
express an opinion on these financial stat e ment s based on our audit.

We conducted our audit in accordance with auditing standa rd s generally accepted in thc United
States of AmericH: the standards applicable to financial audits conta in ed in COl'cmmelll Allt/irillg
Stallr/ards. is slI ed by the Comptroller Genera[ of tbe United States : and Office of ivlanagement
and Budget (Oivl8) Bulletin No . 07 ~04. Allr/ir /? ('fj llirell/ellls./i)/" Fet/em! Fil1a/lcial Srar('II/('IIrs. as
    KEARNEY&
    COMPANY

aml:lldcd. Those standards n.:quire Ihal we plan ;mel pl.!rform th e: audit 10 obtain reasonable
assurance ahollt whether the financia l statement s arc frl!c of m:ltcriJ\mi sstalclllt:l1L All audit
inclmks examining. on a test basis. c\'idencc slIPPorling Ihe amount s and di sclosures in the
financial statements. An audit also includes assessing the accounting principles used and
signific:11l1 estimates made by management. as wel l as l:valu ating th e ovcrnll financ ial slatcmcrll
presentation. We believe 1hal our audi t provides a rcasonabh: basis f(lJ' our o pinion.

In our opinion. the financial statement s relcrn:d to ahove pn.:Sl:111 fairl y_in all material respects.
thl.! financial position of the Cen ter as of September 30. 2009 and ':WOS. and its net cost of
operatio ns. changes in net position. and budg\:tary reso urces t()r the Yl.:ars then \:nded. in
can jl.ll'Inity wilh accounti ng principles generally accepted in the United States of America.

Our audit was conducted for the purpose of forming an opinion on Iht.: tinancial statcments
rderred to in the first paragraph. Th l' information contained in Managl'1l1ent' s Di scussion and
Anal ysis is !lot a requi red pm1 of the basic financial statement s. but is considered suppk:mentary
information required by accounting principks generall y accepted in the United States of
America. We applied certain limited procedu res. which co nsisted principal ly ( I f inquiries of
management regarding the method s of measurement and presentation of thi s infonnatiol1:
however. WI.: did not audillhi s information. and therefore WI.: do not e :~ press an o pinion on it.

I NTERNAL CON TROL O \ ·ER FINA:-<CI ,\ L REPORTI NG

In planning and performing our audit. we consi dered Ihe Ccnll.:r· s inh.'rnal conlro l o\'er financi al
reporting by obtaining;1I1 understanding of the design effectivcness of the Center' s imernal
controls, determining whcthl.!r these contro ls had been placed in operation. assessing control ri sk.
and performing tests of the Center' s ('011lrol s in order to dctl'l'Illinc our auditing procedures lor
the pu rposl.! of cxpn.:ss ing an opinion on the financial statcm!.!nt s. and not to provide an opinion
on the int ernal con trols. Accordingly. we do not cxprl.!ss an opinion on thc cfTecti vcn!.!ss ofthl.!
Cent!.!r· s int!.!rnal control OW l' financial reporting and compliance.

Wt.: limited ollr control testing to thost.: contro ls necessary to ilchicvc thl.! lollowing OMB Bulletin
No. 07-04. as amended. control objectives that prov id !.! reasonab le. but not absolute aSS llrance.
that: I) tnln saction s arc properly recorded. proct.:ssed. and sllmmari zt.:d to permit the preparntion
ortltl.! financial stalt.:mellt s in accordance wi th accounting princ iples gl.!llerall y acccpted in thc
Unit ed States of America. and assets are sa feguarded against loss from unauthorized acquisiti on.
usc. or di spos iti on: 2) transactions arc executl.!d in complialH:e with laws govl.:rning the lISC or
budgt.:t authorit y: Government-wide policies and laws idcntiti\:d in App!.!ndi x E orOMB Bulletin
No. 07-0-1. as amended: and other laws and rl.:gulations that co uld ha, e a direct and material
encCI on tin ancial statcments. \Ve did not lest all internal controls rel evant to the operating
obj ecti ves broadl y ddined by the Fcdera l iVlanagcrs' Financiallntcgrit y Act (FMF IA). such ns
those contro ls relevant 10 ensuring efficient operations.

A control ddiciclH.:y !.!xi sts whcn the des ign (I I' op!.!l'ation or a I:(lntl'ol do!.!s not allow management
or cmp loyees. in the normal course orperlo rming tll!.!i r ass igned function s. to prevent or detect
mi sstatement s on a timel y bas is. A signiticanl ddicieney is a control dcliciency. or combination


                                                       ,
    KEARNEY&
    COMPANY

ofcollirol ddi ci en cies. thai adversel y affec ts the Center"s abi lit y to illi lialL". allihoriz~ . record.
proCl:ss. or report linancial (h1la reliabl y in accordance with gc ncral! y acccptl.:d aCCclllllting
principles. sllc h thallh e re is more than a rClllole likdihood Ih at a mi sstatement orlhc Centcr" s
financial statements that is morc than incon sequential will not he pn:vcnted             ('If   detected by the
Cen ter' s internal co nt ro ls.

A materi al weakness is a s igni ticanl deficiency. or combi nati on of sign i fieanl ddiciencies. that
result s in more than a fem OI!.: likelih ood that a malcrialmi sstalCI11 Cnl of the linaneial slatC[m:nt s
will not be prevented or detected by the Center' s internal cOIllro\s. Qur considera tion ofi ntcrnal
contro l was lor the limited purpose dcscribl!d in the sl!cond paragraph of thi s scetion. and wo uld
not nccessa ril y iden tify all ddici e ncics in il1h:n1<l1 con trol that might be signiticant ddicicncics
or material weaknesses . We noted no matters involving internal control and it s operations Ih al
we consider to be material weak nesses or s igniticant dcfici cnc ies.

CO~ IP LIANCE        AND OTHER          ~IATTERS


As 1':111 of obta ining reasonable ass urance about whelh er thc financial statemcnt s an.: n'ce of"
material mi sstat eme nt. we pcr/onn ed tests of the Ct:ntcr" s compli ancc with cC I1ain provisions of
laws and regu lati ons. noncomplian ce with which could ha vc a direct and m:l1crial d"ICcl on the
determinat ion offinancia l statement amou nts and certain othe r laws and reg ulations specifi ed in
0 1vIB Bull etin No. 07-04. a s amended. We limited ou r tests o f compliance to these provisions
and did not test complian ce with all law s and regulation s app li cnblc to the Cent cr. Howcver.
providing an opinion o n compliance with certain I)I"O\'is ions or laws and regulation s was not an
objecti ve or our audit. and. ;!l:cordingly. we do not ex press Stich an op ini o n.

Th e results of o ur tests of com plian l:c described in th e preccding paragraph di scl osed no
in stances of noncompliance o r other mail ers that arc required to be n.:pot1ed under C()I'C'mlll e ll/
Alldi/illg SllIlIdards and OMB Bulletin No. 07-04 . as amendcd .




Thi s report is inte nded solely ror th e information and use o rthe Cen te r' s Board of Directors. the
Center' s Audi t Co mmittee. th e Ceillcr's management. and Congress. and is not inl cnded to be.
and should no t be. used by :lnyonc o ther th:tt1 th ese speci fied parties.




May 14.2010
Alexandria. Virginia




                                                         3
     OPEN WORLD LEADERSHIP CENTER


FINANCIAL STATEMENTS FOR FISCAL YEARS 2009 AND 2008




                   Washington, DC
                     March 2010
                        OPEN WORLD LEADERSHIP C ENTER

     FINANCIAL STATEMENTS FOR FISCAL YEARS ENDED 2009 AND 2008

                                  TABL E OF CONT ENTS

                                                                 PAGE
MANAGEMENT'S DISCUSSION AND ANALl'SIS

     I\I/issioll and Overview                                     I
     HislO1Y                                                      I
     Overview of Final/cia! Statements                            2
     LimitMiollS of the Filial/cia! Statemcllfs                   3

FINA NCIAL STATEMENTS AND N OTES

     COl/solidated Balance Sheets                                 5
     COllSo/ida fed Statements of Ne! Costs                       6
     COllsolidated Statement of Changes ill Ner Position          7
     Combilled Statement of BudgctcllY Resollrces                 8
     NOles to rhe Financial Statemellts                           9

REPORT OF INDEPENDENT A UDITORS

     I"dependent Auditor's Report
MANAGEMENT' S DISCUSSION AND ANALYSIS
                       OPEN WORLD LEADERSH1P CENTER
                              Financial Statements
                       For the Fiscal Years Ended September 30, 2009 and 2008

                      MANAGEMENT ' S DISC USS ION AN D ANALYS IS


                                  M ISSION AN D OVE RVIEW

The mi ssion afthe Center is to enhance understanding and capabilit ies for cooperati on between the
United States and the countri es of Eurasia and the Balti c States by deve loping a network of leaders
in the region who have gained signifi cant, fi rsthand ex posure to America's democratic, accountable
go vernment and free-market system. Since its foundi ng by Congress in 1999, the Open World
Program, which is adm inistered by th e Center, has enab led over 12,000 current and future leaders
from Russia, Ukraine, Azerbaij an, Bciams, Georgia, Kyrgyzstan, Lithu ania, Mo ldova, Tajikistan and
Uzbekistan to experience American democracy and civil society, wo rk with their Ameri can
co unterparts, li ve in American fami lies and communiti es, and gain ncw idcas and inspiration for
implementing change back home. The Cen ter is today the largest U.S.· Russ ia exchange program
and a pro ven model fo r exchanges fo r leaders fro m other Eurasian co untries.

The Center is an independent ent ity in the Legislati ve Branch governed by a board of trustees. Board
memb crs consist o f memb ers of Congress and pri vate citizens. The Congress ional leadership
appoint s congressional members while the Librarian of Congress appoi nts cit izen board members.
The Librari an of Co ngress is currently the Chaimwil of the Board .

The Center receives appropriated fund s and is authori zed to rece ive pri vate donations . All fu nds
credited to the Center arc deposi ted in a Uni tcd States Trcasury trust fu nd, the Open World
Leadership Cen ter Trust Fund.


                                             fII STORY

Congress established Open World in May 1999 as a Library o f Congress- ru n pi lot exchange fo r
cmergi ng Ru ssian leaders. Ln late 2000, Congress created (public Law 106·55 4) the Center as a
separate legislative branch ent ity to manage the program, which had a lready hosted 3,500 Russ ians
in 48 states. In 2003, Congress made the other New Independ en t Sta tes and the Balt ic Republics
eligib le for Open World and expanded thc Russia program to incl ude cult ural leaders. One year
later, Congress ex tended Open World el igibil ity to any countries designated by the Center's board.
Today, th e original Russia program, the cultu ral leaders program for Russ ia and exchanges with
other countries in the region are co llectively ca ll ed the Open World Progra m.

The Center co nducts its programs with the help o f many respected governm ent agencies and non·
governmental organizat ions (NGOs) in the Uni ted States and participating co untri es. A large pool
o f pro minent U.S. and foreign government bod ies and internatio nal NG Os nominate most
candid ates. Finalists are then selected by comm ittees composed mainl y of U.S . Embassy sta f( The

                                                - I -
 U.S. visi ts arc carried out by some 20 organ izations with cxchange-program expert ise that the Center
 co mpetiti vely selects and awards grants to eac h year. These organizations either host groups
 themse lves or rccmit local affi liates, civic organi zations, ed ucat ional inst ituti ons, and government
 bod ies to do so. In add iti on to arranging the professional agendas, these local host organizat ions
 provide meals, lodgi ng, and cultural and social act ivit ies.

 The Center awards con trac ts for the intem<ll ional and domestic travel and othcr logistical and
 administrative arrangements for the program and other ex pert services. The Open World Alumni
 Program is supported by pri vate fundi ng and administered throu gh a contract.

 The Cen ler reli cs on the Library of Congress (the Library) through an interagency agreement to
 provide accounting serv ices and support, fin ancial reporti ng and fi nancia l statement s, personnel and
 hum an resources services, contrac ting servi ces, lega l services and offi ce space.


                            OVE RVIEW OF FINANCIAL STATEMENTS


                                                 Balance Sheet

 T he purpose of the Balance Sheet is to prov ide finan cial statement ll sers with infonnation about Ihe
 Center's assets, li abili ti es, and net posi tion as of fi scal years 2009 and 2008. The Center's net
 position consists of the fu nds authorized by Congress for operat ions of the Center since inception,
 private donati ons, and the net results of operation s through fi scal years 2009 and 2008.

                                                             Liabilities and
Assets                           (in millions)               Net Position                       (in mi ll ions)
                                2009               2008                                      2009                 2008
                                                             Inlragovernm ental
Intragove rnmental                S8.7               S7.9    Liabiliti es                      50.5                  SO. I
Prepayments                        0.5                0.4    Other Liab ilit ies                 1.2                  1.3
Othe r                                                       Net Pos ition                       7.5                  6.9
Tota l Assets                     S9.2               S8.3    Total Liabilities                 S9. 2                 58.3
                                                             and Net Position



 The Center's assets total 59.2 and S8.3 million for fi scal years 2009 and 2008, respecti vely with
 Investments with the Department o f the Treasury (Treasury) as the major item. The Center's
 liabilit ies lola I SI .8 and 5 1.4 milli on co nsisting ofaccoun ls payab le, accnlcd payroi ll iabili lics, and
 advances.




                                                       -2-
                                       Statement of Net Costs

Th e purpose of the Statemen t of Net Costs is to provide financ ial stat ement use rs with in fonnat ion
about program costs. Program costs for fi scal year 2009 were S 14.6 million and S 17.2 million for
li seal year 2008. The S2.6 million difference this fiscal year was due primari ly to the decrease in
grant act ivity.

                               Slatement of C han ges in Net Position

The purpose of the Statement of Changes in Net Posit ion is to provide fin ancia l statement users with
infonnation about the Center' s financin g sources and the components ofthe changes in net posit ion.
Th e Center's net position increased by SO.5 mill ion due to the Center 's net financing sources S15.1
mi Il ion exceeding its net cos ts of operations, ($ 14.6 milli on).

                                 Slate men t of Bud getary Resources

Th e Statement of Budgetary Resources and the related disc losures provide infomlation about how
budgetary resources were made available as well itS thei r status at the end of the period. The
Budgetary Resources section of the statement presents the total budgetary resources available to the
Center and infomlation about the status ofbudgelary resources at the end of the period. Finally, the
Ou tl ays section presents the total outl ays of the Center and relates obligat ions incurred to total
ou tlays.

The Center's budgetary resources were $32.0 and S25.3 mi ll ion for fisca l years 2009 and 2008. This
fiscal year budgetary resources were derived from S 1.0 million of the fi scal year 2008 unobligated
balance, S 1.6 mi llion recoveries of fiscal year 2008 unpaid obligations, and $29.4 mi llion of current
year budget authority. Outl ays of S14 .3 million consisted of S13.9 milli on from approp riated
sources and SO.4 million from non-appropriated so urces. Please refer to Note II , especia lly for an
ex p lanation of the budgetary resource amounts.


                     LIMITATIONS OF THE FINANC IAL STATEMENTS

The Center's financial statement s are Ihe culm inat ion of a systemati c accountin g process. The
statements have been prepared to report th e financial position and resu lts of operations ofthe Center,
pursuanllo the hierarchy of accounting princip les and standards set forth in Note I to the financial
statement s. While the statements have been prepared from the books and records main tained by the
Library o f Co ngress, the statements arc in addit ion to the fi nanc ial reports used to monitor and
control budgetary resources which are prepared from the same books and records. The statements
sho uld be read with the realization that they are a component of the U.S. Government, a sovereign
entity. One imp lication of this is that obligati ons and subsequent li abilities cannot be incurred
without legis lation that provides au thority to do so.




                                                  -3-
FINANCIAL STATEMENTS AND NOTES




              -4-
                          OPEN WORLD LEADERSHIP CENTER
                                   Consolidated Ba lance Sheets
                                  As o f September 30, 2009 and 2008
                                                                               FY 2009         FY 2008
ASSETS
Entity Assets:
         Intragovemmcntal Assets
            Fund Balance with Treasury (Note 2)                            $      1,03 4,95 1 S   974,0 19
            Investments (Note 3)                                                  7,727,380     6,938,700
          Total Intragovcmmcnta l                                                 8,762,331     7,9 12,7 19

          Property and Equipmen t                                                1,586       2,039
         Prepayments (Note 4)                                                  471,549     42 1,700
        Other (Note 5)                                                               0        1,6 15
Total Assets                                                               S 9,235,466 S 8,338,073

LlA BIL1TrES
        Intragovemmcntal Liab iliti es
         Accou nts Payable and Accrued Funded Payro ll Benefits            S       160,080 S       25,683
            Advances from Others                                                   406,729        119,967
          To lal Intragovemmcntal                                                  566,809        145,650


          Accou nts Payable and Accrued Funded Payro ll Bene fits                 1, 136,589    1, 158, 142
          Unfunded Annual and Compensatory Leave                                      64,978        94,58 1
Total Liabilities                                                          $      1,768,376 S 1,398,373

NET POSITION
 Cumulalive Resu lts of Operations - Eaml arkcd                                   7,467,090    6,939,700
Tota l Net Posit ion                                                              7,467,090    6,939,700

Tota l Liabilities and Ne t Positi on                                      $ 9,235,466 $ 8,338,073


T he accompanyi ng notes arc an integral part of these fi nancia l statem ents.



                                                 -5-
                               OPEN WORLD LEADE RSHIP CENTE R
                                Consolidated Statements of Net Costs
                            For the Yems Ended September 30, 2009 and 2008
                                                                         FY 2009         FY 2008


Net Costs by Program Area:




  Program Costs
                                                                  s       14,643,577 S    17,233,322

   Less Earned Revenue                                                             o               o
    Net Costs of Operations                                               14,643,577      17,233,322


Th e accompanying notes arc an integral part of these financ ial statements.




                                                -6 -
                                OPEN WORLD L EA DERSHIP CENT ER
                             Conso lidated Stat ement of C hanges in Ne t Position
                               For the Ycars Ended September 30, 2009 and 2008
                                                                 FY 2009                               FY 2008
                                                        Cumulat ive    Unexncndcd             Cumulat ive UncxQcllded
                                                         Results of   AQQrogriati on           Results of AQl2roQriation
                                                        Operat ions                           Operations




C umulative Results of Op erations
Begi nning Balances                                $       6,939,700                     OS    13,749,807                0

Bud getary Financing Sources
 Appropriations Received                                                      13,900,000                 0      9,000,000
 Other Adjustments                                                                                       0        (22 ,500)
 Appropriations Used                                       13 ,900,000       ( 13 ,900,000)     8,977,500      (8,977 ,500)
  No n- Exchange Revenue                                       328,876                            622, 124                0
  Donations Cash or Securities                                 4 12,724                           393,867                 0
  Ot her financing sources                                     472,237                   0        380,034
Other Financing So urces
 imputed Fi nancing from costs absorbed
 by others (Note 8)                                              57,130                            49,690                  0
Total Financing Sources                                    15 , 170,967                  0       10,423,215                0
Net Costs of Operations                                   (14 ,643,577)                       ( 17,233,322)                0
Net Ch ange                                                     527 ,390                      (6,8 10, I 07)
Net Position, Endin g                              S          7,467,090                  oS     6,939,700                  0



The accompanying notes are an integrol part of these financial statements.
Note . Open World LeadershIp Center funds arc carm:nked funds




                                                        -7-
                                  OPEN WORLD LEADERS HIP CENT ER
                                 Co mbined Stalemenl of Budgetary Resources
                                  For the Years Ended September 30, 2009 and 2008
                                                                                        FY 2009           FY 2008


Budgetary Resources (see Nole 11 )
  Unobligated Balance, brought forward. October I                               S      1,021,753 S       5,001 ,326
   Recoveries of prior year obligations                                                1,647,52 1        1,214,096
    Budget Au thority
      Appropriation (see Note 11 )                                                    29,032, 157       19,465,663
      Spending authority from orrsctl ing collections
       Earned
        Collected                                                                         42.354            59,807
        Change in receivables from Federal Sources                                        ( 1,615)               0
       Advance Received                                                                  286,763           380,034
       Subtotal budgel authority                                                      29,359,659        19, 145,436
    Pcrnuncntiy 1101 available                                                                   0        (22,500)

   Talaillu dge lary Resources                                                  S     32.028 ,933 S    25 ,338,358
Sta tus of nu dgetnry Resources
   Obligations Incllrred:
       Direct                                                                   S     3 1,582,660 S     24 ,3 16,605
   Unobligated balance-Exempt from Apportionment                                          446,273        1,021,753
Tota l S tatns or Budgetary Resources                                           S     32,028,933 S     25,338,358


C lmnge in Obligatcd Balance:
   Obligatcd Balance, Net
      Unpa id obl igations, brought forward, October I                    S            6,823,880 S      10,678,447
      Less: Uncollected cllstomer payments from Federa l sources, brought
              Fom'ard October 1                                                            (1,6 15)          (1,615)
      Tota l unpaid obligated balance, net                                              6.822,265       10,676,832
      Obligations Incurred                                                            3 1,582,660       2' ,3 16,605
      Less : Gross out lays                                                         (28,493.34 1)     (26,957,076)
      Less: Recoveries of prior-year unpaid obligations                              ( 1,647,521)      ( 1,214,096)
     Change in uncollected customer paymelllS from Federa l sources                         1,61 5                 0
  Obligated Balance, Net. End of Period
      Unpaid obligations                                                               8.265,678         6,823,880
      Less: Uncollected customer payments from Federal sources                                 0            (1 ,61 5)
       Totill , unpaid obligated balance, net end of period                            8,265,678         6,822,265
Net Outl:lYs
     Gross Outlays                                                                    28,493,34 1       26,957,076
     Less: Offsetting Collections                                                      (329,117)           320,226
     Less: Distributed Offsetting Receipts                                          (1l ,900,OOO)      (8,977,500)
   Net Outlays                                                                  S     14.264.224 S     18,299,802
TIle accompanying notes arc iln integra l part of these financial statements.


                                                          -8-
                                   Open World Lea dership Cent er
                                    Notes to the Financia l Statcments
                           For the Ycars Ended Septcmber 30, 2009 and 2008

No tc 1.          Summary of Significant Accounting Policics

A.         Reportin g Entity

The Center, a legis lat ive branch agency of the federal government was established by Public Law
106-554 to bring pol iti cal and civic leaders to the United States to meet their American counterparts
and experience American styl e democracy and free enterpri se in action. The Center relics primarily
on appropriated funds to support its programs and operations. Budget requests are subject to review
by the House Appropriations Committee and the Senate Appropriations Sub-committces on
Legislative Branch. The Ccnter also receives funds from other federa l agencies and gifts from the
public to carry out its opcrations.

The Center's programs and operations arc governed by a board of trustees. Board members consist
of members of congress (appoi nted by thc Congrcssional leadcrship) and private citizens (appoi nted
by the Librarian of Congress). The Librarian of Congress is currcnt ly the Chairman of the Board.

B.         Basis of Prese nt ation

The accompanying financial statcments report the financial pos ition, net costs, changes in net
position, and budgetary resou rces of the Center for fisca l ycars 2009 and 2008. These statements
and schedul es include amounts of all funds designated by law and managed for the purpose of the
Ccnter. The statements were prepared from the Library'S financia l management system in
accordance with the form and content for en tity fina ncial statement s spec ified by the Library's
financia l management regulations and directives and the accoun ting policies summari zed in this
notc.

As a Legislative Branch agency. the Cen ter is not rcquired to follow the executi ve agency
accountin g principles established by the Comptro ller Gencra l undcr 3 1 U.S.C. 351 I or standards
developed by the Federal Accounting Standards Advisory Board (FASAB). However, the Center
maintains its fund balances with the Treasury and submits infomlat ion required to incorporate its
fina ncial and budget data into the overa ll federa l govenUllent structure. For purposes of financial
management and reporting, the Ccnter fo llows Library regulation (LCR 1510) which adopts the
federal standard s for financ ial reporting and internal cont rols in a manner co nsistent with a
legislative agency,

c.         Basis of Accou lltin g

Transactions are recorded on the accma l basis and are within budgetary limitations establ ished to
faci li tate compliance with legal constrain ts and controls over lise offcderal fund s. Under the accrual
method, revenues are recognized whcn earned and expenses are recognizcd when incurred, without
regard to receipt or payment ofcnsh.



                                                  -9-
 The Center's financial stalement s confonn to accounting princi ples genera ll y accepted in the United
 States of America as promul gated by the FASA B. The American Inst itute of Certified Public
 Accountant s recognizes FASAB Standards as generally accepted acco unting principles for federa l
 repo rting ent iti es.

 The statements were also preparcd based on guid ance pub li shed in the Orficc of Management and
 Budget (OMS) C ircul ar No. A-1 36, Financial Reporting Requirement s. The Center is not required
 to adopt thi s circu lar, and accordingly has clected to use the di sc losures management deems
 necessary for the fa ir present atio n of financial statement info rmation.

 D.          Use of Es timates in Preparing Financial Stat ements

 The preparation of finan cial stat emcnts, in conformit y with fo'ederal acco untin g standards, requires
 m anagement to make estimates and assumptions. These estimates affect the reported amollnts of
 assets and liabilit ies and the disclosures of co ntingent assets and liabilities at the date of the financial
 statements, and the amoun ts of revenues and ex penses during the reporting peri od. Actual results
 may differ from these estimates.


 Note 2.            Fund Balance with Treasury


                                                                     2009                       2008
      OWLC Funds Origina lly fro m Appropriations                  S 207,244                   5325,456
      Gift Fund s                                                    827,707                    648,563
      To!a l                                                       ~ I .Q.~.2~ I               ~2H.Q I 2


      S tatus o f Fund Balance with Treasury:                          2009                     2008
      Unobligated Balances - Ava il able                                   SO                          SO
      Obligated Balances - Unavai lab le                             1,034,95 1                 974,019
      Total                                                         ~ 1.QJ4.25 1              ~274. Q I 2




I No le 3.          Investments, net

 The Center's fu nds that are not needed currentl y to finance current acti vities are invested in interest-
 bearing obligations of the United States. The Center has directed the Library to invest funds derived
 from contribu tions in Treasury securities. Due 10 the short-term nature of the investm ents, the cost
 of investments in conjunction with acc rued interest approximates their fair market values.
 Investments o utstanding were $7,727,380 and 56,938,700 for fiscal years 2009 and 2008. Average
 annua l investmen t rates were 3.344% and 4.542% in liscal years 2009 and 2008 .

                                                    . 10 .
                                                                     2009                   2008
        Face Value                                                  $7,677,000           $6,870,000
         Interest Receivable                                            50,380               68,700
         In vestment s, Net                                         ~Z.12Z.J§Q            $6.m.ZQQ




I Note 4.           Prepay ments

 Th e Center awards grants 10 approximately 20 organizations with exchange-program expertise that
 arc competitively selected for the purpose of hosting the foreign delegates. In fi sca l years 2009 and
 2008 , $47 1,5 49 and $421 ,700 had been paid to but not yet used by these organizations to carry out
 the ir services.


I Note 5.           Other Assets

 Other assets primaril y co nsist of account receivables for fi sca l year 2008 of $1 ,6 15.

 No te 6.           Intragovc rnmental Activiti es

 The financial activities orthe Celller interact with and depend on the serv ices orthe Department of
 State and the Library for administmtive Slipport.

 Note 7.            Liabilities Cove red and Not Cove red By Bud getary Reso urces



                                                                      2009                2008
      Liab ilit ies Covered By Budgetary Resources                  S I,703,3 98          51,303,792
      Liab ilities Not Covered By Budgctary Resourccs:
         Jn tra go vern meI1l a I                                             0                     0
           Ot her                                                        64,978                94,581
      Total                                                         ~I.z~§.m             ~1,32~.m


 Liabilities covered by budgetary resources include accounts payab le, advances From olhers,
 accrued ru nded payro ll and bene fits, advances rro m the pub lic, and dererred credits.

 Li abi lities not covered by budgetary resources include accrued unrunded annual leave and
 benefits.




                                                   - II -
I Note 8.        Imputed   Fin ancill~   Sources

 An imputed finan cing source of S57, 130 and 549,690 was recogni zed for partial fundi ng of
 employee benefit costs incurred on behalf of the Center by the Orficc of Personnel Management in
 fiscal years 2009 and 2008, respectively.


 Note 9.         Tota l Cost and Ea rn ed Revenu e by Budget f uncti onal C lassification

                                                                     2009             2008
      Tot al Cost by Function Classifi cat ion:
      Education, Training, Employment and Social Services S J 4,643,577          S 17,233,322



I No te 10.      Tola l Cost by Prot!r:lI11 Act ivity

                                                                 2009                  2008
      Intragovemm ental Costs                              $ 1,017,70 1              S462,5 15
      Public Costs                                          13,625,876              16,770,80
      Tota l Program Costs                                 SI 4.~~J.m             SI Z,2JJI J~




                                                   - 12-
I No.c l!.              Budge tary Res ources

 Th e Center's General Fu nd received appropri ations of S13,900,OOO. The Appropri ation amount
 reflected in Budget Authority in this note and in the Stat ement of Budgetary Resources includes the
 general fund appropri ation as well as its transfer ors 13,900,000 from the general fu nd to the trust
 fund . This "combined" reporting. where elimination of internal transfers is not perm itted, is a
 sta ndard presentatio n of the Statement o f Budgetary Resources, as requ ired by generall y accepted
 accounting pri nciples [or a legislat ive agency.

 The Center's net out lays arc 54.0 mill ion less in fi scal year 2009 as compared to fi scal yea r 2008,
 pri marily due to the decrease in grant activity [or fi scal year 2009. These net outlay totals agree with
 the data repo rted by the Treasury and th e OMS fo r both years fo r the Center. Out lay report ing is to
 be consistent between T reasury, OMB, and the lin ancial statements.

 The fo llowing presen tation is designed to assist the reader in understanding that the actua l
 appropriation fo r fi sca l years 2009 and 2008 were SI3,900,000 and 59,000,000, respectively.




                                                                                    '\llp rOllrla tcd


              Balance, Brought   S          s               S   1,02 1,         s    S    5,00 1,
         u"''''' ,
            Prior-Year                          1,647.521       ' , 647,,5211

       ,llItflor.uy:




             Receivables from

        ill UI/filled Customer

         Received
        Advances fro-;;;-




         i    Not Available
                       Law




                                                     - 13 -
lstows of Blldgetary
~e'follrces:
~blig(lt;oIlS Incurrel!:
p irect                             S 13,900,00        S 17,682,66          S 31,582,66       S 8,977,50          S 15,339,105 S 24.316,605
reimbursable          _                                                                                                                -          -
 To lal Obligations IlI clirred         13)00,00            17,682,66         3 1,582 ,66          8,971,50            15,339,105      24,316,605
 Unobligated BJlancc (Excmpt                                   446,273            446,273                     I         1,02 1,753      1.021 ,753
 -ro m Apportionment)
~nobligated Balance - Not
 " vailablc
  rotal Status of Bud~ctar)'        S 13,900,00        5 18,128,933 5 32,028,933              5 8,977,50          S 16,360,85        5 25,338,35
 Resources
f.:"lIollge ill Obligated
~_ala/lce:
[unpaid Obligaled Ba!allce,
  el, Brougllt Fon.'ard,
Ioc/ober I:
iunpaid Obligations, Brought        5              (   S     6,823,88       S 6,823,88        S                   S 10,678,44 1 S 10,678,44 1
  orward
  e5S: Uncollected Customer                        (            (1,6 15           (1.6 15                                  (1,615            (1,615
 'ayments, Brou~h t Forward
  olal Unllald Obll g:ltlon                                  6,822,26           6,822,26                               10,676,83       10,676,83"'
  alance, Net
pbligations Incurred, net               13,900,00(           17,682,66         J I ,582.66         8,m,5m               15.3J9,105     24.3 16,605
  css: Gross Outlays                 ( IJ,900,OOO          (14,593,341       (28,49J.34 I         (8,977,500          (17.979,576    (26,957,076
  ess: Reco\'eries of Prior· Year                  (        (1,647,521        (1 .647,521                              (1,2 14,096    (1 ,214,096
~npaid Obligations
  h:mge in Uncollected                             (              1,61 5             1,6 15
  ustomer Payments from
 'ederal Sources
 Tota! VI/pail! Obligated
  aitlllce, Nel:
!unpaid Obligations
  ess: Uncollected Customcr
  aymcnts from Federal
                                                 :           8,265,67
                                                                        (
                                                                                8.265.67                                6.823,88
                                                                                                                           (1.615
                                                                                                                                           6,823.88
                                                                                                                                              ( 1,615

  ou rce5
 rotal Unpaid Obligated             5                  5     8,265,67       5 8,265,67        S                   S     6,822,26     5 6,822,26
 Ua lanee. Net. End of PerIod

,V4't Olllla),s:
  ross Oullays                      S 13 .900,00       S 14593.341 S 28,493.34 1              S    8,m,S0I        S 17.979,5 7       S 26.957.07
Less: OlTsening Colleclions                                  (J29, 117          (329, 11 7                                320,22          J20,22
tess: Distributed Offselling                                          0                                       (
 ntrabud ~ctary Rcceipts                                 (13,900.000         ( 13,900.000)                             (8,977,500    (8.977,500
  oint Net 0 1ltla\'5               S 13,900,00        5      364,2!        S t4,2M,H '       S    8,977.50       S      9.322,30" S 18.199,80'




                                                                   . 14·
Note 12.           Reconciliation of Net Cost of Operations 10 Budget



Resources Used to Finance Activities
                                                                                          FY 2009          FY 2008
Budgetary Resources Obligated:
   Obligations Incurred                                                              S    3 1,582 ,660 S   24,3 16,605
   Less: Spending Authority from Offsetting Collections and Recoveries                     (1,975 ,023)     (893,870)
   Distributing Offselling Receipts                                                      ( 13,900,000 )    (8,977,500)
   Ncr Obligations                                                                         15,707.637      14,445,235
Ot her Resources
   Imputed Financing from Costs Absorbed by Others                                             57, 130         49,690
   Total Resources Used to Finance Acti\'it ics                                            15,764 ,767     14,494 ,925
Resources Used to Finance Items not Part of the Net Cost of Operations
  Change in Budgetary Resources Obligated fo r Goods, Services and J)enefits
    Ordered but not yet Provided                                                          ( 1,092,041 )     2,7 10,322
  Resources that Fund Expenses in Recognized in Prior Periods                                 (29,602)               0
  Budgetary Offsetti ng Collections and Receipts 1113t Do Not AlTeet Net Cost of
    Operalions                                                                             13,900,000       8,977,500
  Resources that Finance the Acquisitio n of Assets                                                  0              0
  Other Resources or Adjustments to Net Obligated Reso urces
    that do nOI affec t Net Cost of Ope Tat ions                                         ( 13,900,000)     (8,977,500)
   Tot al Resources Used to Fi na nce Items nol Part of the Net Cost of Operations        (1,121 ,643)      2,710,322
Total Resources Used to Finance the Net Cost of O peratiolls                              14 ,643, 124     17,205,247
Co mponents of Net Cos t of Operations that willn ol n equire or Generate
Resources
In F uture Periods
Components Requ iring or Generating Resources in Future periods:
 Increase in Annual Leave liability                                                                  0         27,395

Total Components Requiring or G enerating Resources in FulUre Periods                                0         27,395
Components not Requiring or Generating Resources:

 Depreciation and Amortization                                                                    453             680
Tola l Compo nents o r the Net Cos t or Operations Ihat will Not nequire
Or Generate Resources in the C urrent Period                                                      453          28,075
Net Costs of Operations                                                              S    14 ,643,577 S    17,233,322




                                                     - IS -
